                                                             O FFICE OF A UDIT S ERVICES , R EGION III
                                                               P UBLIC L EDGER B UILDING , S UITE 316
                                                                  150 S. I NDEPENDENCE M ALL W EST
                                                                            P HILADELPHIA , PA 19106

July 9, 2012


TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Health


FROM:          /Stephen Virbitsky/
               Regional Inspector General
                 for Audit Services


SUBJECT:       Georgetown University Costs Claimed Under the Recovery Act for National
               Institutes of Health Grant Number 1RC2NS069450 Were Allowable.
                (A-03-11-03302)


The attached final report provides the results of our review of Georgetown University‘s
Recovery Act costs claimed under the National Institutes of Health Grant Number
1RC2NS069450.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Michael Walsh, Audit Manager, at (215) 861-4480 or through email at
Michael.Walsh@oig.hhs.gov. Please refer to report number A-03-11-03302 in all
correspondence.


Attachment

cc:
   Meredith Stein
   OIG/GAO Liaison
   National Institutes of Health
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


    GEORGETOWN UNIVERSITY
   COSTS CLAIMED UNDER THE
      RECOVERY ACT FOR
     NATIONAL INSTITUTES
       OF HEALTH GRANT
    NUMBER 1RC2NS069450
       WERE ALLOWABLE




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-03-11-03302
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                        INTRODUCTION

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH
Institutes and Centers and to the Common Fund. In addition, the Recovery Act provided $400
million for comparative effectiveness research. NIH allocated $300 million of Recovery Act
funding to the National Center for Research Resources for shared instrumentation and other
capital equipment.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Cost Principles

Federal regulations (45 CFR Part 74) provide the uniform administrative requirements for
awards and subawards to institutions of higher education and other non-profit and commercial
organizations. The allowability of costs incurred by institutions of higher education are
determined in accordance with the cost principles contained in Office of Management and
Budget Circular A-21 The Cost Principles for Educational Institutions (2 CFR part 220).

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.

Recovery Act Award to Georgetown University

Georgetown University (the University), established in 1789, is an academic and research
institution in the District of Columbia. The University secured more than $200 million in
research awards during fiscal year 2010. The University Medical Center, its largest research
center, conducts basic and clinical research, including 300 active clinical trials. NIH awarded
the University a Recovery Act grant in the amount of $3,907,801 for comparative effectiveness
research related to the development of models of Parkinson’s Disease that might be more
predictive in drug development. The budget period for the grant was September 30, 2009,
through August 31, 2011. As of June 30, 2011, the University had claimed $2,565,673 under the
grant. NIH requested that we perform an audit of the costs claimed.




                                                  1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Recovery Act costs claimed by the University were
allowable under the terms of the grant and applicable Federal regulations.

Scope

We reviewed the $2,565,673 in costs the University claimed through June 30, 2011, for NIH
award 1RC2NS069450, consisting of $2,361,075 for direct costs and $204,598 for indirect costs.
We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to obtaining an understanding of internal
control as it relates to the specific objective of our audit.

We performed field work at the University’s accounting office in the District of Columbia during
the period August through September 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed grant announcements, grant applications, and notices of grant award;

   •    reviewed the University’s audited financial statements and management letters as of June
        30, 2010;

   •    identified awarded and expended funds in the grantee’s accounting records as of
        June 30, 2011;

   •    summarized costs by cost category from expenditure reports;

   •    verified mathematical accuracy of the expenditure reports;

   •    compared budgeted amounts to actual costs;

   •    determined that fringe benefits and indirect cost rates used by the University were
        consistent with the HHS Division of Cost Allocation rate agreement and that the rates
        were properly applied; and

   •    reviewed selected direct expenses for a judgmental sample by tracing expenditures to
        supporting documentation, including accounting records and invoices.



                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

Based on the evidence reviewed, we did not identify any discrepancies that would indicate that
the University’s total costs claimed of $2,565,673 were not allowable in accordance with the
terms of the grant and Federal cost principles. Consequently, this report has no
recommendations.




                                               3
